VISA PLATINUM/VISA SIGNATURE
F1
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

F2
3.99%

Introductory APR for a period of 12 billing cycles.

F3
7.99%

to 12.99%
F4

After that your APR will be
based on
your creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Signature

F5
3.99%

Introductory APR for a period of 12 billing cycles.

F6
9.99%

APR for Balance Transfers

to 14.99%
F7

After that your APR will be
based on
your creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Platinum
F8
3.99%

Introductory APR for a period of 12 billing cycles.

After that your APR will be 7.99%
F9
to 12.99%
F10
based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Signature
F11
3.99%

APR for Cash Advances

Introductory APR for a period of 12 billing cycles.

After that your APR will be 9.99%
F12
to 14.99%
F13
based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Platinum
F14
to 12.99%
F15
when you open your account, based on your
7.99%
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Signature

Penalty APR and When it Applies

F16
to 14.99%
F17
when you open your account, based on your
9.99%
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Platinum
16.99%
F18
This APR will vary with the market based on the Prime Rate.
Visa Signature
16.99%
F19
This APR will vary with the market based on the Prime Rate.
This APR may be applied to your account if you:
- Make a late payment
How Long Will the Penalty APR Apply? If your APRs are increased

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

DMAFX1 (MXC402 CCM002)

SEE BACK OF PAGE for more important information about your account.

How to Avoid Paying Interest on Purchases
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Set-up and Maintenance Fees
- Annual Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

for this reason, the Penalty APR will apply until you make six (6)
consecutive minimum payments when due.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

None
F20
None
F21
None
F22
$10.00 or F24
2.00% of the amount of each cash advance, whichever
F23
is greater
1.00% of each transaction in U.S. dollars
F25
Up to $10.00
F26
Up to $15.00
F27

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).”
Promotional Period for Introductory APR. The Introductory APR for purchases and balance transfers will apply to
transactions posted to your account during the first 12 months following the opening of your account.
Loss of Introductory APR. We may end your Introductory APR for purchases and balance transfers and apply the
Penalty APR if you are 60 days late in making a payment.
Application of Penalty APR. Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making
a payment.
Effective Date.
November 1, 2013.
The information about the costs of the card described in this application is accurate as of F28
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Statement Copy Fee
Emergency Card Replacement Fee
Pay-by-Phone Fee

$10.00 or the amount of the required minimum payment, whichever
F29
is less, if you are 15 or more days late in making a payment.
$15.00 or the amount of the required minimum payment, whichever
F30
is less.
None
F31
$10.00
F32
$5.00
F33

DMAFX1 (MXC402 CCM00)-e

